                                   . i





                  ETHICS IN GOVERNMENT





      t1WICE$ o




'0


     Ii"d:m


OFFICE OF INSPECTOR GENERAL
OFFICE OF EV ALVA TION AND INSPECTIONS
                                          APRIL 1990
                         OFFICE OF INSPECTOR GENERAL


The mission of the Offce of Inspector Genera (OIG) is to promote the   effciency, effective­
ness and integrty of programs in the United States Deparment of Health and Human Services
(HHS). It does this by developing methods to detect and prevent fraud, waste and abuse. Cre­
ated by statute in 1976, the Inspector General keeps both the Secretar and the Congress fully
and curently infonned about programs or management problems and recommends corrective
action. The OIG perform its mission by conducting audits, investigations and inspections
with approximately 1,400 staff strtegically located around the countr.


                 OFFICE OF EVALUATION AND INSPECTIONS


This report was produced by the Offce of Evaluation and Inspections (OEI), one of the three
major offces within OIG. The other two are the Offce of Audit Services and the Offce of In­
vestigations. The OEI conducts inspections which are tyically short-tenn studies designed to
determne program effectiveness, effciency and vulnerability to fraud or abuse.

The repon is entitled, " Ethics in Government. "
                                            This inspection sought to assess how well pro­
fessional employees of the Deparment understad the ethical standards of conduct.

This study was conducted under the diction of Thomas F. Tully, Regional Inspector General
of Region IT, Offce of Evaluation and Inspections. Paricipating in this project were the fol­
lowing people:

Region II                                     Support Regions
Jack Molnar                                   Bar McCoy
Tracey Rennie                                 Bob Katz III
Jodi Nudelman                                 Ron Kalil
                                              Barbara Butz
Headquarters                                  Perr Seaton VII
Tom Noplock                                   Ralph Tunnel VI
Scott Paterson                                Kaye Kidwell IX
Ta Zitans                                     Paul Gottlober IX
                    ..- .-- -   -...--."---   -'- --- ---   -'-   --_   .-_   '-'




                ETHICS IN GOVERNMENT





                                                                  Richard P. Kusserow
                                                                  INSPECTOR GENERAL




OEI-02- 90- 00710                                                                       APRIL 1990

                                         ,"




                                 EXECUTIVE SUMMARY


PURPOSE
To assess how well professional employees of the Deparment of Health and Human Services
(HHS) understand the ethical stadards of conduct.



BACKGROUND

The Inspector Genera conducted this inspection while the Deparent is implementing
Prsident Bush' s Executive Order 12674 Prnciples of Ethical Conduct for Government
Offcers and Employees, " which mandates annual trning to Presidential appointees,
employees who must fIe financial disclosur reports and procurement officials. Other
deparental ethcs trning consists of the Assistat Secreta for Management and Budget
implementation of the procurement integrty act, the Offce of Genera Counsel' s (OGC)
orientation for al political appointees and Assistant Secretar for Personnel Administration
(ASPER) issuance of the " Stadards of Conduct " to new employees.

Despite the Deparent s efforts, the Offce of Government Ethics (OGE) found some
weakesses in ethics programs and in employees ' understanding of the standards of ethical
conduct. Also, the Offce of Inspector Genera (OIG) contiues to see cases of employee
misconduct.



METHODOLOGY

The OIG mailed a questionnai to a strtified random sample of 600 professional employees
to assess their understanding of the ethical standads of conduct. Face-to- face interviews were
also conducted, at both headquarers and in the regions, with a representative group of 56
HHS managers. These interviews supplemented the surey findings by identifying
employees ' perceptions and atttudes regarding the ethical standards and the process by which
they are made aware of the standards.



FINDINGS

Employees Score   73   Percent On Ethics Survey; Training Is Key To Higher Scores.

The average score on the tre/false survey was 16. 8 corrct out of 23 questions (73 percent).
Scores var with training; trained employees scored 17. 5 while employees who have not had
training scored 16.3. Scores also var by pay plan and length of service. Senior Executive
Service (SES) employees scored 17. 5 correct, while General Schedule (GS) employees scored
16. 2 corrct. Those with less than 5 years scored 15.3, while those who have worked 21 years
or more scored 17.3. However, upon analysis, the varance by training was found to be the
only factor that was statisticaly signifcant.




Employees Score Low On Hatch Act, Gifts And The Use Of Government Resources.

Questions regardig   the Hatch   Act, gifts and the use of government resources received the
lowest scores. Respondents tended to answer questions over conservatively on accepting
monetar awards and wearng parsan election buttons, Le., believing that they could not do
thngs that are, in' fact, permtted.


Managers Believe Understanding Of Ethical Standards Is Adequate, But Want The Depart­
ment To Do More.

Ninety- five percent of the managers interviewed believe their understanding of the ethics
standards is adequate; 76 percent believe their staf has an adequate understanding. Yet, over
half believe the Deparent is not doing an adequate job of makng employees aware of the
ethcal stadards of conduct, and another half believe that the standards of conduct are not
uniformy enforced. Furer, 82 percent say they would attend a hypothetical four- hour
course on ethics; 87 percent say they would diect their staf to attend such a course. Specific
areas where more trning is requested include procurement, post-employment restrctions,
conflct of interest and the recent changes in ethics regulations.



CONCLUSIONS AND RECOMMENDATIONS

The OGC, in consultation with ASPER , should: (1) develop an ethics education program for
all professional employees, not only for those covered by the Executive Order, geared to the
specific charcteristics of the components ' stas and missions; (2) establish a system of
newsletters or bulletins to provide infonnation on problems, weak areas and changes in the
curent stadards of conduct; and (3) distrbute, for guidance purposes, a standard table of
penalties to deal with common cases of ethical misconduct.



AGENCY COMMENTS

We received comments on the report frm most HHS operating divisions and staf        offces.
Respondents were generaly in favor of stronger educational programs. The General Counsel
Assistat Secretar for Health , and Assistant Secretar for Personnel Administration objected
to the standard table of penalties. We modified our recommendation on the latter to call for its
distrbution for guidance purposes rather than making it mandatory.
                                            ........................
                                                  .................. .... ..... .... ..... .... ........... .... ..... ........




                                                          TABLE OF CONTENTS


EXECUTIVE SUMMARY


BACKG RO U N D ........................................................................................................ 1



   ETHODOLOG Y ................ ...................................................................................... 2



FI N DI NGS          ..... ........ .11..                               ..1111....... ...11..... ..e.                               ..lIellll..II.OOG .011.11111111111111 





                 Employees Score 73 Percent On Ethics Surey; Training Is Key To
                 Higher Scores .....                         ...11... .11.11. II.. 11.1111...1111. 1111111111.
                                                                                                           II 11110              II 011

                                                                                                                 1111110111111111111 3



                 Employees Score Low On Hatch Act, Gifts And The Use Of
                 Government Resources................ ........ ............................................... ............ 4



                 Managers Believe That Their Understading Of Ethics Standards
                 Is Adequate, But Want The Deparent To Do More...................................                                                                     5


CONCLUSIONS AND RECOMMENDATIONS ..............................................                                                                                        7


AG ENCY COM ME NTS O.O...........DOIl DII.II...IIII.IIII.II..0.ell.. lIellll 0..11111111111111111111
                                                                                                11110111101111011111111    II Oil 1111
                                                                                                                  8111111111111     1111011111101111111111





APPEN DIX.....IIII..IIII 1111111111.11.11...
                                      ..1111.....11.......... .......II..IIIIIIIIIIII......II.II.IUJeC e..11 ellllCl 111111...111111110
                                                                                                                                    1111131313111113
                                                                                                                                               1101111111111111111111111 

            ,-_      - - -- -'   .   ._. .._--   ",-- -   - ,- .,.- '._..- - ___'_         '-_- .""   .   -_   "".          , .-
                                                                                                                     ~~~ --- ."    . .-""   ..-. , ".. - "'-....- --   --- ."- - _..' -'- -"- ---   ---
                                                                                     '0'




                                                 ETHICS IN GOVERNMENT


PURPOSE
To assess how well professional employees of the Deparment of Health and Human Services
(HHS) understand the ethical stadards of conduct.



BACKGROUND

This inspection was conducted by the Inspector General while the Deparment has been
implementig Prsident Bush' s Executive Order     (B.   12674 Prnciples of Ethical Conduct
for Government Offcers and Employees. " In addition to clarying many of the specific
ethical standads, this executive order mandates annual trning for everyone in the following
categories: Prsidential appointees; employees in the Executive Office of the President;
employees who must fIe financial disclosure reports; and procurement offcials.

The standards of ethical conduct for Federal employees are based on Presidential diectives
and crmial statutes. Pror to E. O. 12674 , Prsidents Eisenhower, Kennedy and Johnson each
issued executive orders establishing or modifying ethical standards for Federal employees.
Section 401 of President Johnson s E. O. 11222 requird the fIing of financial disclosure
statements. Title 18, sections 202 though 209 of the United States Code, sets fort those
conflct of interest statutes having crnal penalties.

                             monitoring standards of ethical conduct for Federa
The process of establishig and
employees involves a number of agencies. The Offce of Government Ethics (OGE),
origially established within the  Offce of Personnel Management, is responsible for auditing
Executive Brach agencies ' ethics programs. It reviews agency-specific standards of conduct
and audits the fIing of financial disclosur statements. The OGE also provides training for
Designated Agency Ethics Officials (DAEO) and renders opinions on specific cases. With
  O. 12674 , OGE is now an independent agency and has increased staff for auditing and
training.

Each Federa agency is requird    to implement the standards of conduct, assign DAEOs, and
obtain periodic fIings of public and confidential financial disclosur statements by
employees. Within each agency the DAEOs trn and render opinions, much the same as OGE
does on a broader level.

At HHS, the Assistant Secrtar for Personnel Admnistrtion (ASPER) issues the Standards
of Conduct to all new employees upon entering on duty. The Deparent also has published
 Standards of Conduct.. .in Brief DHHS Ethics Guide, and An Ethics Handbookfor
Employees of the Department of Health and Human Services.             Additionally, all incoming
political appointees receive an ethics briefing from the Offce of General Counsel          (OGC).
Within the last year, there has been an ethics training initiative for Public Health Service and
Social Securty employees, and initial ethics training has been conducted for employees
involved in procurement as par of the implementation of the " Offce of Federal Procurement
Policy Act Amendments of 1988" (P. L. 100- 679). Ethics training, as mandated by E.
12674 , is now being scheduled for all procurement officials and employees required to file
fmancial disclosure statements.

Yet problems remain. Recent audits of HHS components by OGE found some weaknesses in
ethics programs and also employee misunderstanding of the standards of ethical conduct.
Also, the Office of Investigations continues to find cases of employee misconduct.



METHODOLOGY

The fmdings of this inspection are based on two distinct data collections. The first, a survey
containig 24 tre/false questions, developed with the assistance of OGC, was mailed to a
stratied radom sample of 600 professional employees. Two hundred employees were
selected from each of three strata: Strtum 1 - Senior Executive Service (SES); Stratum 2 ­
General Management (GM) and General Schedule (GS) 13 to 16, Commissioned Officer 
          (CO)
4 to 6; Stratum 3 - GS 10 to 12, CO 1 to 3. The total universe of professional employees was
   500. An overal response rate of 77 percent was obtained, 2 percent of which was not
useable for varous rea sons. Broken down by strtum, 1 had a 75 percent response rate, 2 was
79 percent, and 3 was 69 percent. Although the surey originaly contained 24 questions, a
question regardig the use of franed envelopes was dropped as the Deparent s policy was
being reviewed at the tie of the surey.

The second data collection consiste4 of 56 face-to- face interviews with a representative group
of HHS managers required to complete financial disclosur statements. These interviews
supplemented the surey findings by identifyig employees ' perceptions, attitudes and
concerns regarding both the stadads of ethical conduct and the process by which employees
are made aware of them. These interviews took place both at headquarers and in the regions.
                  ,..
                  ,.­




                                                FINDINGS



Employees Score         73   Percent On Ethics Survey; Training Is Key To Higher Scores.

The average score for professional employees who took the tre/false survey was 16. 8 correct
out of 23 questions (73 percent). Because of the characteristics of the sample , overall and pay
plan findigs can be generalzed to the respective population.

Training was found to have a positive relationship with scores. Those employees who had
traiing scored 17. 5,        while those who did not scored 16.3. The impact of traiing   on scores
was also found to be statisticaly signficant, based on an analysis of varance and application
of tests to varous groupings of data.




                               TRAINING IMPROVES AVERAGE SCORE



              Average Score Based on 23 Questions




                                NOT TRAINED                            TRAINED
Scores also increase with lengt of service and pay plan. Upon analysis, however, these
relationships were not found to be statistically significant as was training. Those with less
than 5 years had an average score of 15. 3; the average score rose to 17. 3 for those who have
worked 21 years or more. SES employees scored the highest, averaging 17. 5 correct , and GS
employees scored the lowest with 16. 2 correct.


Employees Score Low On Hatch Act, Gifts And Use Of Government Resources.

Problem areas were identified in the surey by low scores on certain questions. As shown in
the char below, employees scored lowest on questions regarding the Hatch Act , gifts and use
of government resources.



                                SUBJECT AREA SUMMARY.

SUBJECT AREA              (# of responses)         % CORRECT          % WRONG        %N/A
Reportg                        (447)                    99%

Post-employment              (1, 341)

Gambling                       (447)

Travel                         (894)

Conflct of Interest          (1,788)

Outside Activity               (447)

Use of Gov t Resources       (1,788)


Gifts                        (2, 682)                                     35*


Hatch Act                      (894)                                      42*




* 3/4 of the wrong answers on gifs, and   2/3   on Hatch Act reflect overly conservative
interpretations .

Nt   A =   not answered
                                                                  ...




With regard to questions on Hatch Act and gifts, respondents tended to answer conservatively,
believing that alowable activities are prohibited. For example, over hal the respondents
believe accepting monetar awards for a meritorious public contrbution and wearng parisan
election buttons are not allowed when , in fact, both are permtted. They also think that
supervisors may not give nomial gifts to employees, although there are no such prohibitions.
They believe, erroneously, that they cannot accept unsolicited material such as pens, cups and
calendars. As one senior manager noted, " I never studied the standards. In general , I think I
know them. I am conservative about the standards. (See Appendix 1 for scores and answers
to each question)

With regard to use of government resources, hal the respondents believe that they are allowed
to use government time to prepare for such outside activities as wrting for a professional
joural or teaching a course if the subject matter relates to their offcial duties, although it is
not alowed. Additionaly, nearly hal are unawar of the mandatory suspension for using a
GSA vehicle for personal puroses. Employees also did not know that they are required to
obtai prior approval for an outside activity even when they are not compensated for that
activity. Interestingly, this ara shows the greatest varance by pay plan , with managers
answering correctly 72 percent of the time and GS employees only 53 percent of the time.


Managers Believe That Their Understanding Of Ethics Standards Is Adequate, But Want
The Department To Do More.

The managers consider on- the-job ethical decisions a common event. Over half say that they
are faced with makng an ethical decision at least weekly, and are comfortable when faced
with those decisions.

Ninety-five percent of the managers interviewed believe their understanding of the ethical
standards of conduct for Federa employees is adequate. Furer, 76 percent believe their staff
also has an adequate understandig.

Managers report that their ethical decision-makng process is based priary on personal
values and secondaly on government standads. When asked how they know an ethical
decision they had made was correct, nearly two-thirds report they follow their instincts,
relying heavily on years of service and their moral beliefs. Almost two-thirds also say they
would call OGC with an ethics question since OGC is the designated ethics office and the
experts in this area. This shows , as one respondent commented " that people know where to
go to for help and that s the impoqant thing.

Managers face a wide varety of ethical decisions. One manager recalled when he had to
refuse a contrbution by a State agency for a meeting his office was holding because his office
has oversight responsibilty of the agency. Another manager attended a conference hosted by
a State, but had to refuse the meals and lodging. Some smaller day-to- day ethics problems
mentioned included: use of telephone for personal reasons; time and attendance disputes; and
employees wanting to work outside the offce on a par-time basis.
                                         ...




In general, senior managers do not have problems with the curent ethical standards.
Ninety-one percent consider the ethical stadards of conduct realistic; 79 percent find them
easy to understand. Most also think the standards are generally fai, equitable and
self-evident. Furer, over 60 percent would not make any specific changes to the ethical
standards if given the opportunity. However, when asked which standards were unrealistic
they mentioned: accepting lunches and travel reimbursement from non- Federal agencies;
frequent fler regulations; post-employment restrctions; and FTS rules. When asked
specifically about post employment, most managers say they understand the restrctions and
find the restrctions both necessar and fai.

One respondent said, 
  Understanding the standards is not the problem; rather, implementing
them is the difcult part. Nearly half of those interviewed believe that the ethics standards of
conduct are not enforced uniformy thoughout the Deparment.

Over half the managers interviewed also believe the Deparent is not doing an adequate job
of makg employees aware of the ethical stadards of conduct. Many believe efforts
improving, but feel more can be done. Several cite a general lack of emphasis and concern
about ethics, and a need for the Deparment to set an appropriate tone.

Projecting from the surey, over half of the professional staf of the Deparment have not had
any fonnal ethics training. Yet, most managers would lie additional training for themselves
and their staff. Eighty-two percent of the interviewed managers would attend a hypothetical
four- hour course on ethics; 87 percent would diect their staff to attend such a course. One
manager, however, stated that he would " want to review the course beforehand to make sure
it is wortwhile and effective. " Additionaly, another manager believed the training should be
  geared toward our parcular workload. Even then, I would only send those employees who
had not recently been trned. " Many managers also recommended that trining should
include workshops and case studies relevant to ethical problems in everyday situations.

When asked if there ar specific standads they would like to know more about , senior
managers mentioned procurement, post-employment restrctions, conflct of interest situations
and recent changes in ethics regulations. When questioned about their awareness of the
procurment integrty act and President Bush' s E. O. 12674 on Ethical Conduct for
Government Offcers, the managers report a general lack of understanding of their potential
effects.
                    CONCLUSION AND RECOMMENDATIONS


 Our basic recommendations are to strengthen training and enforcement. As noted in the


surey
 fmdings, half the professional staf have had no fonnal ethics training, training helps improve
 test scores, lower- graded employees get lower scores, and scores improve with length of
 service. Both the mai


 or sought.
                                and interviews identify subject areas where training is needed


 The Deparent s curent ethics trning     agenda consists of the OGC orientation for political
 appointees, the ASPER issuance of the " Stadards of Conduct" to new employees, and the
 trning mandated by E. O. 12674 for procurement offcials and employees who must fie
 fmancial disclosure statements.

 Specifcally, it is recommended that OGC, in consultation with ASPER:


              develop an ethics education program for all professional employees, not only
              those covered by the executive order, and an ethics component for new
              employee orientation. They should be geard to the characteristics of each
              components ' staff and mission;

              establish a system of newsletters or bulletins to provide employees with
              inormation on misunderstoo areas (Hatch Act, gits and use of government
              resoures), as well as changes in the ethical stadards of conduct; and

              distrbute within theDeparent, for guidance puroses, the Federal Personnel.
              Manual Letter 751- 3, " Suggested Table of Actions for Corrcting Employee
              Misconduct. "   This   table, developed by the Prsidents ' Council on Integrty and
              Effciency (PCIE) and adopted by   the Office of Personnel Management, is being
              used by most other Federal agencies.
                                AGENCY COMMENTS



We received comments on the draft repon from ASPER , OGC, the Assistant Secretar for
Management and Budget (ASMB), the Assistant Secretar for Planning and Evaluation
(ASPE), the Office for Civil Rights (OCR), the Public Health Service (PHS), the Health Care
Financing Admnistrtion (HCFA), and the Offce of Human Development Services (OHDS).

Almost all agreed with the recommendations for trning and a system of newsletters.
However, some believed that more study or evaluation should be done before ethics traiing is
significantly expanded. Nevenheless, the OGC, which has the responsibility for monitoring
and guiding deparenta implementation of ethics policies, identied a number of
Deparent- wide training initiatives it was leadig and noted that it is developing an ethics
newsletter.

With regard to the recommendation to adopt OPM' s " Suggested Table of Actions for
Correction Employee Misconduct, " OHDS, ASMB, OCR, and HCFA concurred. The HCFA
observed that Deparent-wide implementation might be diffcult due to the number of
bargaining units. The ASPE recommended that the recommendation be modified to say
 consider" the Table. The OGC, ASPER , and PHS did not concur with this recommendation
feeling that the table would limit managerial discretion.

We believe that OPM and PCIE' s intent in issuing the Table was to provide guidance to
managers and not to lit    their discretion. We have, therefore, modied this recommendation
to cal for its distrbution with the Deparement. This distrbution , for guidance purposes,
would help addrss the findig that hal of the managers contacted believed that the ethical
standards of conduct were not being enforced uniformy.
- .. --"          - , ",, ,,'-   '--_._-   ._---   _.-   -:-, --­   -_.,-_   _.-




                                                                             APPENDIX


                                           OIG GOVERNMENT ETHICS SURVEY



           % CORRECT                           QUESTION AND ANSWER



           97%	                              Failure to report instances of fraud, abuse, waste and corrption
                                             to appropriate authorities is a violation of the stadards of con­
                                             duct.

                                             TRUE - Executive Order 12674 (4/12/89), Section 101(k) states
                                             that employees shal disclose waste, fraud, abuse, and corrption
                                              to appropriate authorities.


           77%	                              Even the appearance of a conflct of interest is a violation of eth­
                                             ics rules.

                                             TRUE - 45 CFR 73. 735- 802 and Section 101(n) of the Executive
                                             order cover appearce of a conflct of interest. Employees are
                                             encouraged to use the " Newspaper Rule. " If the situation were re­
                                             ported on the front page of a newspaper would it 	 appear to be a
                                             confct of interest.


           82%	                              If an organization you are monitoring asks whether you are inter­
                                             ested in working for them , you can give them your resume with­
                                             out telling your supervisor.

                                             FALSE - You must infonn your supervisor you may be. seeking
                                             employment with an agency you are monitoring so that you may
                                             be taen off the assignment. Such a situation creates a financial
                                             conflc of interest in violation of 18 USC 208. Post employment
                                             rules should also be discussed.
66%	   You may represent a neighbor who is having a problem with
       SSA , if you do so on your own time.

       FALSE - 18 USC 203 & 205 prohibit a Federal employee from
       representing anyone except a parent , spouse, child or a person
       with whom there is a fonnal relationship, such as guardian, be­
       fore any Federal agency.


60%	   You may accept unsolicited promotional material, such as pens,
       cups and calendars.

       TRUE - You may accept such unsolicited promotional material.
       It has been deemed more costly to return than it is worth.


63%	   You may accept food or refreshments of nominal value on an in­
       frequent basis in the coure of a working lunch.

       TRUE - You may accept food during a working lunch if there is
       no established way to pay and the event is infrequent. However
       if the lunch is in a restaurant the Federal employee would be ex­
       pected to pay his or her fai share.


56%	   You may give your supervisor a birday present of nominal
       value.

       FALSE - 18 USC 7351 & 45 CFR 730 735- 504 prohibit giving
       gits to supervisors, except on special non-recurg occasions.



67%	   Your supervisor may give you a birday present of nominal
       value.

       TRUE - There are no prohibitions on supervisors giving gifts to
       staff.
79%         You may paricipate in frequent fler      clubs in the course of off­
            cial trvel   but the   benefits must be turned over to the Govern­
            ment.

            TRUE - Current policy, based upon guidance from the Comptrol­
            ler General, is that Federal employees may collect frequent flyer
            miles as long as those benefits accrue to the Government.


89%   10.   You ar free to combine personal travel with offcial Government
            trvel without makng any special justification to your supervisor.


            FALSE - Extrme caution must be used when combining offcial
            and personal travel to avoid the appearce of misuse of funds.
            Such trps may not occur under a blanet travel order and as such
            require justification.


N/A   11.   You may use Government envelopes to reimburse Diners Club
            for travel charges.

            As interpreted under 18 USC 1719, you may not use Government
            envelopes for any personal matter such as mailng payroll checks
            to bans. It is unclear whether this applies to payments to Diners
            Club.


90%   12.   You may not sell commercial products on Government property.
            durg your lunch period.
            TRUE - 45 CFR 73. 735- 305 prohibits the sellng of commercial
            products on Government time or in a Government buildig.


87%   13.   You may paricipate in a football pool or lottery being run in your
            offce.

            FALSE - 5 CFR 735.305 prohibits Federal employees from par­
            ticipating in gambling, bettng, or lottery activities while on Gov­
            ernment time or propert.
50%   14.   You may use Government time to prepare for such activities as
            wrting for a professional journal or teaching a course if the sub­
            ject matter relates to your offcial duties.

            FALSE - 45 CFR 74. 735- 705 & 706 preclude the use of Govern­
            ment time, supplies, equipment or staff to prepare for such out­
            side activities as teaching or writing.


92%   15.   You may accept honorara from private sources when you give
            speeches or perfonn other activities on behal of the Government.

            FALSE - Federal employees are prohibited by 18 USC 209 from
            receiving any salar or compensation for Government services
            from any source other than the United States Government.


45%   16.   You may accept monetar awards for meritorious public service
            from civic or professional groups.

            TRUE - Under 45 CFR 73. 735- 505 Federal employees may ac­
            cept monetar awards for public contrbutions as long as there is
            no conflct of interest.


91%   17.   For two years after you leave the government , you may not repre­
            sent others to the Federa government on contractual matters your
            staf worked on durng your last year of service.

            TRUE - 18 USC 207 (b) (i) places a two- year ban on all fonner
            employees. You cannot represent anyone in any parcular matter
            involvig specifc p es, such as s contrct, that was pending
            under your offcial responsibilty durng your last year of service.



46%   18.   You may wear or display parsan election buttons badges or
            stickers.

            TRUE - You may wear or display buttons, badges or stickers, but
            you may not distrbute campaign material in parisan elections.
68%   19.	   You may circulate nominating petitions in a parsan political
             election if you do so outside the offce.

             FALSE - You may sign a nominating petition , but you may not
             circulate one.


69%   20.	   You do not have to get prior approval for an outside activity if
             you ar not compensated for that activity.

             FALSE - Under 45 CFR 73. 735- 708 you must obtain prior ap­
             proval for some outside activities even if you are not compen­
             sated.


84%   21.	   As a designated " senior employee, " you may not attempt for one
             year to inuence your fonner agency on any matter, even if it
             arose after you left.

             TRUE - 18 USC 207(c) places a one year ban on representation
             on any matter for cenain high level offcials.


54%   22.	   If you are found to have used a GSA vehicle for personal pur­
             poses, you must be suspended or removed from service.

             TRUE - 31 USC 1349 establishes mandatory penalties of suspen­
             sion for at least one month or removal for the personal use of a
             Government vehicle.

94%   23.	   You may not work on a contrct on behalf of a private contractor
             if you parcipated on behalf of the Government in the procure­
             ment of that contrct in the past two years.

             TRUE - Effective July 16, 1989, under 41 USC 423 there is a two-
             year ban on " switching sides " on any contract. However, on
             11/30/89 this provision was suspended for one year.


79%   24.	   You may own stock in a company that you regulate, as long as
             the value of that stock is less than $500.

             FALSE - Under 18 USC 208 you may not hold any stock in any
             company you regulate.
